                                                                            IG-03-021




AUDIT
                                       CONTRACT DATA REPORTS
REPORT
                                                September 16, 2003

Report Recipients:
AE/Chief Engineer
AS/Chief Scientist
B/Deputy Chief
 Financial Officer for
 Financial Management
H/Assistant Administrator
 for Procurement

cc:
B/Deputy Chief Financial
 Officer for Resources
 (Comptroller)
BF/Director,
 Financial Management
 Division
G/General Counsel
JM/Director,
 Management
 Assessment Division
H/Audit Liaison
 Representative
ARC/200-9/Audit
 Liaison Representative
GRC/3-12/Audit
 Liaison Representative
GSFC/201/Audit
 Liaison Representative
JSC/BD5/Audit Liaison
 Representative
MSFC/RS40/Audit
 Liaison Representative




                            OFFICE OF INSPECTOR GENERAL
                            Released by: __Original Signed By ___________________
National Aeronautics and    David M. Cushing, Assistant Inspector General for Auditing
Space Administration
IG-03-021                                                            September 16, 2003
 A-02-004-00

                               Contract Data Reports

Contract data reports, described in the Data Requirements List of a contract, include
information needed by NASA to effectively administer contracts. The audit focused on
whether NASA programs effectively managed these reports obtained under NASA
contracts. We reviewed the process for requiring, obtaining, and safeguarding data
reports on NASA contracts and management’s use of electronic commerce in submitting
or receiving the reports. (Details on our audit objectives, scope, and methodology are in
Appendix C.) The President's Management Agenda lists electronic commerce as one of
five critical management initiatives for Federal agencies. The Office of Federal
Procurement Policy and the Federal Acquisition Regulation require agencies to use
electronic commerce for acquisitions whenever practicable or cost-effective.
Additionally, the Government Paperwork Elimination Act requires Federal agencies to
provide for the option of electronically submitted information as a substitute for paper by
October 21, 2003.

We found that generally, NASA programs effectively managed contract data reports. For
example, NASA personnel ensured that contract-required data reports were necessary for
administering the contract and that contractor proprietary data was adequately protected
from improper use, duplication, or disclosure.

However, we also found that NASA can more effectively promote the use of electronic
commerce as the preferred method for submitting contract data reports. We found that
NASA contracts did not request electronic copies of data reports but instead required
contractors to submit hard copies. Additionally, NASA Headquarters and five Centers
had not established effective electronic commerce policies for contract data reports. We
recognize that there are some costs associated with sending electronic copies but
contractors charge extra to send hard copy reports. (See Appendix F for a range of
contractor costs.) We believe the Agency could have saved thousands of dollars by
requesting contractors to submit electronic copies of contract data reports instead of hard
copies.

NASA Contracts Required Hard Copies. Center contracting and technical personnel at
the 6 Centers we reviewed stated that electronic data reports would have been acceptable
for the 48 contracts that we reviewed -- but 37 (77 percent) of the 48 contracts required
hard copy reports (see Appendix E). We projected that there was a total of 457,771 hard
copy pages of contract data reports for the audit universe that required contractor labor to
print, assemble, package, and mail in addition to providing paper and copying supplies,
binding materials, postage and often personal delivery. Only Marshall Space Flight
Center (Marshall) had established a formal policy that electronic commerce is preferred
for submitting contract data reports. However, Marshall management had not effectively



                                             1
communicated that policy to Center personnel administering contracts. None of the six
Centers reviewed had implemented electronic commerce as a standard practice for
contract data reports.

The 48 contracts were at Ames Research Center (Ames), John H. Glenn Research Center
(Glenn), Goddard Space Flight Center (Goddard), NASA Headquarters,
Lyndon B. Johnson Space Center (Johnson), and Marshall. To assess the latest
procurement practices, we initially selected 16 Goddard and Marshall contracts. We
subsequently expanded the review by statistically selecting a total of 32 contracts from
Ames, Glenn, NASA Headquarters, and Johnson from a universe of 961 contracts
(Appendix C describes the audit sample).

NASA Requires Hard Copy Contract Data Reports for the Data Storage Facility. In
response to the Center for Aerospace Information (CASI) process requirements, NASA
contractually requires all research and development contractors to submit two hard copies
of final contract data reports. CASI is a NASA-funded data storage facility. CASI
personnel disassemble one hard copy to scan into a record management system and retain
the second hard copy in the event the disassembled copy is damaged during scanning. In
2001, CASI received 2,943 hard copies (90 percent) of final contract data reports from
contractors; the remaining final reports (10 percent) were electronic copies. Submitted
hard copy reports had an average of 65 pages with 382,590 total pages. CASI can
process either hard or electronic copies of final contract data reports and makes both
types of reports available to the public on the World Wide Web.

Recommendations for Corrective Action

We recommend that the Assistant Administrator for Procurement:

   1. Issue guidance to the NASA contracting community (e.g., contracting officers,
      contracting officer’s technical representatives, task monitors, resource analysts) in
      the form of a Procurement Information Circular (PIC), or other suitable vehicle,
      to clearly state that the use of electronic commerce is NASA’s preferred method
      for the submission of contract data requirements whenever feasible.

   2. Establish an implementation plan that requires Center procurement offices, in
      conjunction with the cognizant technical personnel, to reassess the contract data
      requirements for all active contracts with a performance period extending beyond
      October 21, 2003, to identify opportunities to increase the use of electronic
      commerce for the submission of such deliverables. The implementation plan
      should identify impediments to the use of electronic commerce and include
      planned actions to remove the impediments by October 21, 2003, as required by
      the Government Paperwork Elimination Act of 1998.




                                            2
Management’s Response and our Evaluation of the Response

The Agency concurred with the recommendations (see Appendix I). NASA’s Office of
Procurement will advise the Chief Scientist, Chief Engineer, and Chief Financial Officer
to expand their use of electronic commerce as the preferred method for submitting
contract data reports and suggest they issue electronic commerce policies for these
reports. The Office of Procurement also agreed to work with the Chief Scientist, Chief
Engineer, and Chief Financial Officer to suggest they establish an implementation plan
that will reassess contract data requirements on all active contracts. In subsequent
discussions with the Agency, the Office of Procurement agreed to complete corrective
action by January 16, 2004. We consider the recommendations resolved, but they will
remain undispositioned and open until the Agency completes the agreed-to corrective
action. We address the Agency’s general comments in Appendix J.




                                            3
Appendixes

Appendix A - Status of Recommendations

Appendix B - Background

Appendix C - Objectives, Scope, and Methodology

Appendix D - Electronic Commerce Laws, Regulations, and Policy

Appendix E - Locations of Contracts Requiring Hard Copy Reports

Appendix F - Contractor Costs Per Hard Copy Page

Appendix G - Contracts in the Initial Audit Sample

Appendix H - Statistically Selected Contracts

Appendix I - Management’s Response

Appendix J - OIG Comments on Management’s Response

Appendix K - Report Distribution List




Acronyms Used in the Report

CASI         Center for Aerospace Information
FAR          Federal Acquisition Regulation
OFPP         Office of Federal Procurement Policy




                                         4
              Appendix A. Status of Recommendations


   Recommendation          Resolved       Unresolved   Open/ECD* Closed
        No.
        1.                    X                         1/16/04
        2.                    X                         1/16/04

*ECD – Estimated completion date




                                      5
                             Appendix B. Background

Authority. The NASA Federal Acquisition Regulation (FAR) Supplement, Part
1827.406-70, “Reports of Work,” allows NASA contracting officers to require reports of
work, such as monthly progress reports, in the contract.

Contract Data Reports. The Data Requirements List of the contract describes specific
data reports the contractor must provide, gives the Government's delivery instructions,
and identifies the number of report copies the contractor must provide and the persons
who must receive copies. Specific data reports include progress, technical, and financial
management reports. Data report delivery requirements depend on the need for the
information. Generally, data reports are required monthly, quarterly, or annually. Data
reports are submitted in hard copy, electronic forms, and other media. Persons receiving
data reports typically include the contracting officer, the contracting officer's technical
representative, and NASA personnel involved in contract oversight or administration.
Contract data reports vary in length and may exceed several hundred pages.

Electronic Commerce. FAR, Subpart 2.101 defines electronic commerce as techniques
an agency uses to accomplish its business transactions such as electronic mail (e-mail)
and World Wide Web technology. Since 1994, laws, regulations, and executive orders
have aimed to move Federal agencies from conducting business with paper, or hard
copies, to using electronic commerce. Electronic documents cost less to store, maintain,
and disseminate than hard copy documents. For example, for a hard copy contract data
report, contractors incur additional costs for labor and overhead (printing, assembling,
and packaging); paper and copying supplies; binding materials; and postage.

The Center for Aerospace Information. NASA operates the Center for Aerospace
Information (CASI) under a cost-plus-award fee contract. CASI personnel make NASA
contract final reports available to the public on the World Wide Web
(http://www.sti.nasa.gov).




                                             6
              Appendix C. Objectives, Scope, and Methodology

Objectives

The overall objective was to determine whether NASA programs effectively managed
data reports obtained under NASA contracts. Specifically, the audit determined whether
management:

    •   ensured that data reports required under NASA contracts were necessary for
        administering the contract;
    •   protected contractor proprietary data reports from improper use, duplication, and
        disclosure; and
    •   used electronic commerce for the submission and receipt of contract data reports.


Scope and Methodology

Audit Sampling. We reviewed a total of 48 contracts of which 16 contracts were
judgmentally selected and 32 were statistically selected. Our initial audit results based
on review of the 16 judgmentally selected contracts indicated that contract data reports
were necessary for administering the contracts and that NASA personnel protected the
data reports from improper use or disclosure. Our results also indicated that there was
room for improvement in the submission process for contract data reports, so we
expanded our review to an additional 32 statistically selected contracts. Details on our
sampling methodology follow.

        Initial Audit Sample. We selected the 16 contracts for initial testing from a
universe of 559 research and development, service, and supply contracts totaling $24.8
billion for 10 NASA locations. The sampling universe included contracts valued at more
than $1 million that were active during fiscal year 2001. We excluded all contracts with
a completion date before September 28, 2001, because we believed they would be closed.
The 16 contracts were from Goddard Space Flight Center (Goddard) and Marshall Space
Flight Center (Marshall), had the most recent award dates in fiscal year 2001, and totaled
$124.3 million.

For each of the 16 contracts, we selected data reports from the contract Data
Requirements List. When possible, we selected recurring data reports, such as contract
progress and performance and financial management reports. We reviewed contract
documentation, Center contract data policies and procedures, contract data reports, the
use of data reports in administering the contract, current data report recipients, and
procedures to protect contractor proprietary data. We interviewed contracting officers,
contracting officer’s technical representatives, other persons listed as data report
recipients in the contract, and contractors.




                                             7
Appendix C

We modified the audit universe (see next section) and used the 247,771 projected number
of hard copy pages to calculate a rate of .06 hard copy pages per $1,000 of contract value.
We applied the .06 rate to the value of the Goddard and Marshall contracts and estimated
210,000 hard copy pages for the contracts.

         Modified Audit Sample. We modified the initial audit universe by expanding
our testing to other NASA Centers. The modified audit universe eliminated contracts in
the initial audit universe, supply and construction contracts, and the contract at the Jet
Propulsion Laboratory. The modified audit universe consisted of 961 research and
development and service contracts with a total value of $4.2 billion. The 961 contracts
included individual contracts valued from $2,000 to $600 million and award dates from
November 1, 1998, through September 30, 2001. We selected these dates because the
Government Paperwork Elimination Act requires Federal agencies to provide for the
option of electronic submission of information as a substitute for paper by
October 21, 2003. Therefore, contracts awarded as of September 30, 2001, would have
received contract data reports by the time of our review.

To evaluate the universe of 961 contracts, we statistically selected a sample of 32
contracts at Ames Research Center (Ames), Glenn Research Center (Glenn),
Headquarters, and Johnson Space Center (Johnson). The 32 statistically selected
contracts had a total value of $1.59 billion. When possible, we selected recurring data
reports, such as contract progress and performance and financial management reports for
testing. We reviewed contract documentation, Center contract data policies and
procedures, and contract data reports. We interviewed the contracting officers,
contracting officer's technical representatives, and other persons listed in the contract as
data report recipients.

To determine the average number of pages for the data reports being reviewed, we either
(1) calculated the average number of pages for a 3- to 6-month period or (2) obtained an
estimate from a data report recipient. We determined the number of report pages per year
by multiplying the data report count by 12 (for monthly reports) or by 4 (for quarterly
reports). We reviewed 101 of 431 data reports required under the 32 sampled contracts
and estimated an annual total of 56,368 hard copy pages for the contracts. We projected
that number of hard copy pages to the audit universe of 961 contracts and calculated a
total of 247,771 hard copy pages. (The 247,771 hard copy pages were less than the
number one might expect from statistical sampling because we used probability and
dollar unit sampling techniques. The techniques provided different projections for each
of the sampled Centers instead of a single projection from the sample to the universe.)
We obtained hard copy costs from 10 contractors in our sample and developed a range of
hard copy costs ($.21, $1.10, and $6.79) per page because contractor estimates varied
widely.




                                              8
                                                                             Appendix C

       Hard Copy Pages in Sample.

Hard copy pages from initial audit sample                                  210,000
Hard copy pages from modified audit sample                                 247,771
Total hard copy pages from sample                                          457,771

Final Contract Data Reports CASI Received. We observed the procedures the Center
for Aerospace Information (CASI) followed to receive, scan, and process final contract
data reports for NASA contracts. We discussed procedures, requirements, and the use of
electronic commerce with CASI officials, the NASA performance monitor, and the
contracting officer's technical representatives. NASA and CASI personnel provided us
data on final contract data reports for contract year 2001. Contractors had submitted a
total of 3,270 final data reports of which 2,943 reports were in hard copy form with an
average of 65 pages. We calculated 382,590 total hard copy pages for the 2,943 reports
by applying 65 pages per report and 2 copies for each report (as discussed previously,
NASA required 2 copies of the final report).

Management Controls Reviewed

We used the General Accounting Office (GAO) “Standards for Internal Control in the
Federal Government,” dated November 1999, to review controls applicable to our audit
objectives. Four GAO standards applied to our audit: (1) restrict access to and account
for resources and records, (2) document transactions and internal controls, (3) maintain
physical control over vulnerable assets, and (4) ensure timely information is available
and communicated. To test controls, we obtained a description of control techniques for
the protection of proprietary data from contracting officers and contracting officer’s
technical representatives, assessed the adequacy of management's controls against the
GAO standards, observed compliance with the controls, and reviewed the timeliness of
hard and electronic copies of contract data reports. NASA policy contains requirements
for the protection of contractor proprietary data, but some Centers have not issued formal
policy or procedures. Our testing at Goddard and Marshall did not identify any
weaknesses in the protection of proprietary data. NASA personnel at the two Centers
were aware of the need to protect contractor proprietary data.

Computer-Generated Data

We used computer-generated data to establish the number of final contract data reports
received by CASI from December 2000 to November 2001 and the number of pages in
the reports. We relied on the computer-generated data to determine the average number
of pages. We used that number in our calculation of potential NASA savings and did not
verify the number with additional testing.




                                            9
Appendix C

Audit Field Work

We performed the audit from October 2001 through December 2002. We performed
audit field work at Ames, Glenn, Goddard, NASA Headquarters, Johnson, and Marshall.
We conducted the audit in accordance with generally accepted government auditing
standards.


Prior Audit Coverage

GAO report, “Information Management: Electronic Dissemination of Government
Publications,” dated March 2001, reported that the Federal Depository Library Program
could reduce distribution costs and make information more usable and accessible through
electronic dissemination of Government reports.




                                          10
   Appendix D. Electronic Commerce Laws, Regulations, and Policy

Federal Acquisition Streamlining Act (FASA) of 1994. FASA, effective
October 13, 1994, aimed to overhaul the Federal procurement system by eliminating
costly paperwork for small-dollar value purchases. FASA provisions established the
Government-wide electronic commerce system that was readily accessible to the public.
The objective of the electronic commerce system, the Federal Acquisition Computer
Network, was to convert the existing acquisition process that was dependent on
paperwork to an expedited process that relied on electronic commerce.

The Paperwork Reduction Act of 1995. The Act's objectives were to (1) make Federal
agencies more responsible by holding them publicly accountable for reducing paperwork
imposed on the public; (2) minimize paperwork for Federal contractors; and (3) minimize
the cost to the Government for the creation, collection, maintenance, use, dissemination,
and disposal of information.

Federal Acquisition Regulation (FAR), Subpart 4.8, “Government Contract Files.”
FAR Subpart 4.8 prescribes requirements for establishing, maintaining, and disposing of
contract files. The subpart states that agencies may retain contract files in any medium
(paper, electronic, microfilm, etc.) or any combination of media, as long as the retained
contract files meet the stated requirements. Since at least October 1, 1995, agencies
could choose how to maintain the files.

Office of Federal Procurement Policy (OFPP), Section 30, “Use of Electronic
Commerce in Federal Procurement.” This amendment to Section 30 became effective
November 18, 1997. It states that “the head of each executive agency shall establish,
maintain, and use, to the maximum practicable and cost-effective extent, procedures and
processes that employ electronic commerce in the conduct and administration of its
procurement system.” OFPP Section 30 is in Public Law 105-85 and USC, Title 41,
Section 426.

Government Paperwork Elimination Act (GPEA) of 1998, Section 1704, “Deadline
for Implementation by Executive Agencies of Procedures for Use and Acceptance of
Electronic Signatures.” The GPEA states that Federal agencies must comply with
requirements “not later than five years after the date of enactment of this Act (1998),”
making the deadline October 21, 2003. The GPEA further states that when electronic
commerce processes are more efficient than hard copy processes, executive agencies
must provide for (1) the option of the electronic maintenance, submission, or disclosure
of information as a substitute for paper and (2) the use and acceptance of electronic
signatures.




                                            11
Appendix D

FAR, Subpart 4.5, “Electronic Commerce in Contracting.” Subpart 4.5 provides
policy and procedures for establishing and using electronic commerce in Federal
acquisitions as required by OFPP Section 30. The effective date was October 30, 1998.
The policy states, “the Federal Government shall use electronic commerce when
electronic processes are more efficient than hard copy processes. Contracting officers
may supplement electronic transactions by using other media to meet the requirements of
any contract action governed by the FAR.” The FAR states contractors may transmit
hard copies of construction drawings as an example of other media that would be
acceptable.

FAR, Subpart 2.101, “Definitions.” The subpart defines electronic commerce as
electronic techniques for accomplishing business transactions. Electronic commerce
includes electronic mail (e-mail), Internet-based technology, electronic bulletin boards,
purchase cards, electronic funds transfer, and electronic data interchange. The FAR
defined electronic commerce in October 1998.

E-Government Act of 2001, Public Law S.803. The public law strives to enhance the
management and promotion of electronic Government services and processes by
establishing a Federal Chief Information Officer within the Office of Management and
Budget. The public law also establishes a broad framework of measures that require
using Internet-based information technology to enhance citizen access to Government
information and services.

The President’s Management Agenda (Agenda), Fiscal Year 2002. As stated in the
Agenda, “Agencies will undertake a federal public key infrastructure to promote digital
signatures for transactions within the federal government, between government and
businesses, and between government and citizens.”




                                            12
  Appendix E. Locations of Contracts Requiring Hard Copy Reports

The following table summarizes the locations of the 48 contracts we reviewed and the 37
contracts that required hard copy reports.


                                   Contracts Reviewed          Contracts Requiring
                                                              Hard Copy Data Reports
Ames Research Center                        8                            7

Glenn Research Center                       8                            4

Goddard Space Flight Center                11                           11

NASA Headquarters                           8                            7

Johnson Space Center                        8                            4

Marshall Space Flight Center                5                            4


Total                                      48                           37




                                          13
            Appendix F. Contractor Costs Per Hard Copy Page

The following table shows our calculation of the cost per hard copy page for contract
data reports. We based our calculation on cost estimates provided by 10 contractors. We
did not include the complete contract number because of the related proprietary cost
information that is shown. The contract number indicates the Center that awarded the
contract (NAS2 applies to Ames Research Center; NAS3 applies to Glenn Research
Center; NAS5 applies to Goddard Space Flight Center; and NAS9 applies to Johnson
Space Center). We calculated the cost per page by dividing the hard copy cost by the
number of hard copy pages. We dropped the lowest and highest contractor estimates
($.06 and $9.76) and calculated an average cost of $1.10 using the remaining eight
contractor estimates.


         Contract         Data        Data         Hard       Total     Cost     Action
         Number         Reports      Reports     Copy Cost    Hard      per      Taken
                        Required      with          ($)       Copy      Page
                           by      Contractor-                Pages
                        Contract    Provided
                                      Cost
                                    Estimates
1    NAS5-xxxxx             9           4         $4,344      67,204    $.06    Dropped
                                                                                Lowest
                                                                                Cost
2    NAS5-xxxxx             8           1          5,000      24,000     .21
3    NAS2-xxxxx            15           4          1,200       3,714     .32
4    NAS5-xxxxx             8           3         36,000      40,000     .90
5    NAS2-xxxxx             6           4            466         203    2.30
6    NAS5-xxxxx             9           5         26,161       8,928    2.93
7    NAS9-xxxxx            20           5          1,759         578    3.04
8    NAS3-xxxxx            61           1         14,742       2,700    5.46
9    NAS3-xxxxx             2           1          3,180         468    6.79
10   NAS5-xxxxx             7           2            586          60    9.76    Dropped
                                                                                Highest
                                                                                Cost
     Total of 10                                 $93,438     147,855   31.77
     Estimates

     Total (Excludes                             $88,508      80,591
     dropped costs)

      Average Cost                                                     $1.10
     ($88,508 divided
     by 80,591)




                                            14
              Appendix G. Contracts in the Initial Audit Sample

The following table shows contracts at Goddard Space Flight Center (Goddard) and
Marshall Space Flight Center (Marshall) that we selected for the initial audit sample. We
obtained cost information from some contractors. We did not include the complete
contract number for all contracts in the table because the contract number could relate to
proprietary information shown in other sections of the report.

   Contract        Type of Contract   Data Reports   Data Reports    Hard Copy Pages
   Number                             We Reviewed    Required by
                                                      Contract


Goddard
NAS5-01095       Research and               3              17       Electronic Copy
                 Development
                 (R&D)

NAS5-xxxxx       Service                    6               9             8,928
NAS5-01106       Service                    2               7       Not requested
NAS5-xxxxx       Service                    4               9           67,204
NAS5-xxxxx       Service                    2              11                20
NAS5-xxxxx       R&D                        2               7                60
NAS5-xxxxx       R&D                        2               8           40,000
NAS5-xxxxx       R&D                        2               8           24,000
NAS5-xxxxx       R&D                        2               8       Contractor did not
                                                                    provide.
NAS5-01127       R&D                        3              10       Not requested
NAS5-00188       Service                    4               5       Electronic Copy
Marshall
NAS8-00017       R&D                        5               30             334
NAS8-00208       Service                    3              325             455
                 (Construction)
NAS8-01094       R&D                        1              16              504
NAS8-00144       Service                    3               8                9
NAS8-97310       R&D                        1               5       Electronic Copy

Totals:                                    45             483         141,514




                                            15
                 Appendix H. Statistically Selected Contracts

The following table shows the 32 statistically selected contracts at Ames Research Center
(Ames), Glenn Research Center (Glenn), NASA Headquarters, and Johnson Space Center
(Johnson). The total 56,368 hard copy pages relate to our review of 101 of 431 data
reports required on the 32 sampled contracts. We did not include the complete contract
number for all contracts in the table because the contract number could relate to
proprietary information shown in other sections of the report.

     Contract        Type of Contract   Data Reports   Data Reports   Hard Copy Pages
     Number                             We Reviewed    Required by       for 1 Year
                                                       Contract
  Ames
  NAS2-xxxxx       Research and                    4              6                520
                   Development (R&D)
  NAS2-98083       Service                         8             14                 975
  NAS2-00015       R&D                             8             18                   0
  NAS2-00055       Service                         5             18               1,788
  NAS2-00065       Service                         3             11               1,100
  NAS2-01064       R&D                             4             10                 798
  NAS2-99078       Service                         0              0                   0
  NAS2-xxxxx       Service                         7             15               4,556
  Glenn
  NAS3-00145       R&D                             2              2               1,344
  NAS3-99155       R&D                             2             61               2,880
  NAS3-00139       R&D                             2              2                 396
  NAS3-xxxxx       Service                         2              2                 468
  NAS3-01136       R&D                             2              9                 864
  NAS3-99120       R&D                             1              1                  60
  NAS3-xxxxx       R&D                             2             61               2,700
  NAS3-99169       R&D                             2              3                  24
  Headquarters
  NASW-00017       Service                         3              5               7,200
  NASW-99027       Service                         6              9               5,856
  NASW-00003       R&D                             4             16                   2
  NASW-01001       Service                         4              6                 652
  NASW-01003       Service                         3              8               3,360
  NASW-99001       Service                         0              0                   0
  NASW-99005       Service                         1              1                   0
  NASW-99037       Service                         1              1                2080
  Johnson
  NAS9-99072       Service                         3             21              14,172
  NAS9-xxxxx       Service                         6             20                 726
  NAS9-00080       Service                         3             14               1,688
  NAS9-00091       Service                         1              1                   0
  NAS9-01008       Service                         5             48               1,440
  NAS9-98123       Service                         2             31                  96
  NAS9-99058       R&D                             4             16                  23
  NAS9-99075       R&D                             1              1                 600
  Total                                          101            431              56,368


                                           16
Appendix I. Management’s Response




               17
Appendix I




                  See
                  Appendix J,
                  OIG
                  Comment.




             18
     Appendix I




19
Appendix I




             20
         Appendix J. OIG Comments on Management’s Response

The Agency concurred (see Appendix I) with the report recommendations and included
general comments regarding the report’s cost estimating methodology, implementation
costs, and the appropriate action official. In response to the Agency’s comments, we
removed our cost savings projections and references to those projections from the report.
The following addresses the Agency’s comments regarding the appropriate action
official.

The Office of Procurement did not agree that the Assistant Administrator for
Procurement is the appropriate official to perform the recommended corrective actions.
We directed the report recommendations to the Associate Administrator for the Office of
Procurement because the Associate Administrator establishes policy that affects NASA
procurement offices, contracting officers, and procurement initiatives. NASA
contracting officers are authorized to award contracts and provide contract language that
requires action by NASA contractors, including requirements involving contract data
reports. The Office of Procurement also serves in an advisory capacity to advise the
Administrator and NASA senior management of potential efficiencies to be gained
through Agency-wide standardization of procurement systems and to coordinate the
implementation of approved procurement initiatives.

In contrast, the Chief Scientist, Chief Engineer, and Chief Financial Officer determine
specific procurement requirements but are not authorized to award contracts. These
officials can also establish policy for operations and organizations under their authority
but do not coordinate procurement initiatives. They rely on the Associate Administrator
for Procurement for guidance and direction on cost-effective and efficient procurement
methods. The report merely recommends changing the delivery method for data reports
and is comparable to any other delivery instruction contained in the contract. The
recommendations do not materially impact the end-user's requirements and in no way
affects the substance or contents of what the contractor delivers under the contract. The
Office of Procurement’s planned actions meet the intent of the recommendations and
should increase the use of electronic contract data reports.




                                            21
                        Appendix K. Distribution List

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
ADT/Associate Deputy Administrator for Technical Programs
AE/Chief Engineer
AS/Chief Scientist
B/Deputy Chief Financial Officer for Financial Management
B/Deputy Chief Financial Officer for Resources (Comptroller)
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
L/Assistant Administrator for Legislative Affairs

NASA Centers

ARC/D/Director, Ames Research Center
GRC/0100/Director, John H. Glenn Research Center at Lewis Field
GSFC/100/Director, Goddard Space Flight Center
GSFC/210H/Procurement Manager, Headquarters Procurement Office
JSC/AA/Director, Lyndon B. Johnson Space Center
KSC/CC/Chief Counsel, John F. Kennedy Space Center
MSFC/DA01/Director, George C. Marshall Space Flight Center
WSTF/RE/Procurement Manager, White Sands Test Facility

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space




                                          22
                                                                       Appendix K

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
 and the Census
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         23
                NASA Assistant Inspector General for Auditing
                               Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Auditing; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title: Contract Data Reports, IG-03-021, dated September 16, 2003



          Circle the appropriate rating for the following statements.
                                            Strongly                                       Strongly
                                             Agree     Agree      Neutral       Disagree   Disagree   N/A
1. The report was clear, readable, and         5         4          3              2           1      N/A

   logically organized.
2. The report was concise and to the            5          4          3            2          1       N/A

   point.
3. We effectively communicated the              5          4          3            2          1       N/A

   audit objectives, scope, and
   methodology.
4. The report contained sufficient              5          4          3            2          1       N/A

   information to support the finding(s)
   in a balanced and objective manner.

Overall, how would you rate the report?

#   Excellent     #   Very Good      #     Good        #       Fair         #       Poor
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.




                                           24
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

#      Congressional Staff                 #    Media
#      NASA Employee                       #    Public Interest
#      Private Citizen                     #    Other:
#      Government:            Federal:             State:         Local:


May we contact you about your comments?

Yes:_____________                          No:______________

Name:_______________________________

Telephone:___________________________

Thank you for your cooperation in completing this survey.




                                          25
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

     Assistant Inspector General for Auditing
     Code W
     NASA Headquarters
     Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.



Major Contributors to the Report

Dana M. Mellerio, Director, Office of Audits (OA) Strategic Enterprises

Daniel J. Samoviski, OA Associate Director, Strategic Enterprises

Nora E. Thompson, OA Program Manager, Strategic Enterprises

Sandra Leibold, Team Leader

William Falter, Auditor

Iris Purcarey, Program Assistant
